No. 21In The

Supreme Court of the United States
SUSAN ELAINE DEVINE, Petitioner,
v.
ABSOLUTE ACTIVIST VALUE MASTER FUND
LIMITED, ABSOLUTE EAST WEST FUND
LIMITED, ABSOLUTE EAST WEST MASTER
FUND LIMITED, ABSOLUTE EUROPEAN
CATALYST FUND LIMITED, ABSOLUTE
GERMANY FUND LIMITED, ABSOLUTE INDIA
FUND LIMITED, ABSOLUTE OCTANE FUND
LIMITED, ABSOLUTE OCTANE MASTER FUND
LIMITED, AND ABSOLUTE RETURN EUROPE
FUND LIMITED, Respondents.

PETITION FOR WRIT OF CERTIORARI

PROOF OF SERVICE

2
I, Ian M. Comisky, counsel of record for
Petitioner Susan Elaine Devine, and a member of the
Bar of this Court, hereby certify that on the 19th day
of February, 2021, I caused to be served a copy of the
Petition for a Writ of Certiorari in the abovereferenced case upon counsel for Respondents by
electronic mail in accordance with the November 13,
2020 Guidance Concerning Clerk’s Office Operations
of the Supreme Court:
Kenneth R. Hartmann, Esq.
Dwayne A. Robinson, Esq.
KOZYAK TROPIN &
THROCKMORTON, LLP
2525 Ponce De Leon Blvd., Floor 9
Miami, Florida 33134
krh@kttlaw.com
drobinson@ktthlaw.com

IAN M. COMISKY
Counsel of Record
MATTHEW D. LEE
FOX ROTHSCHILD LLP
2000 Market Street, 20th Fl.
Philadelphia, PA 19103
(215) 299-2000
icomisky@foxrothschild.com
mlee@foxrothschild.com

3
Carl F. Schoeppl
SCHOEPPL LAW, P.A.
4651 N. Federal Highway
Boca Raton, Florida 33431
(561) 394-8301
carl@schoeppllaw.com
February 19, 2021

